<html>
<title> - THE IMPORTANCE OF ENACTING A NEW WATER RESOURCES DEVELOPMENT ACT</title>
<body><pre>[Senate Hearing 114-198]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-198

                   THE IMPORTANCE OF ENACTING A NEW 
                    WATER RESOURCES DEVELOPMENT ACT

=======================================================================

                                HEARING

                              BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 10, 2016

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
99-407 PDF                     WASHNGTON : 2016                         

            
_________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81e6f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a>  
            
              
              
              
              COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 10, 2016
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     4
Vitter, Hon. David, U.S. Senator from the State of Louisiana, 
  prepared statement.............................................    50

                               WITNESSES

Portiss, Bob, Port Director, Tulsa Port of Catoosa...............     6
    Prepared statement...........................................     8
Swearingen, John, Senior Vice President, Marathon Petroleum 
  Corporation....................................................    12
    Prepared statement...........................................    14
Roberson, Rob, Director of Corporate Logistics, Nucor Corporation    17
    Prepared statement...........................................    19
Mattei, Norma Jean, President-Elect, American Society of Civil 
  Engineers......................................................    23
    Prepared statement...........................................    25
Makarios, Kyle, Director of Government Affairs, North Central 
  States Regional Council of Carpenters..........................    31
    Prepared statement...........................................    33

 
    THE IMPORTANCE OF ENACTING A NEW WATER RESOURCES DEVELOPMENT ACT

                              ----------                              


                      WEDNESDAY, FEBRUARY 10, 2016

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room 406, Dirksen Senate Office Building, Hon. James M. Inhofe 
(chairman of the committee) presiding.
    Present: Senators Inhofe, Boxer, Barrasso, Capito, Crapo, 
Boozman, Wicker, Fischer, Sullivan, Carper, Cardin, Whitehouse, 
Gillibrand, Booker, and Markey.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The hearing will come to order.
    Today's hearing is on the importance of enacting a Water 
Resources Development Act.
    This is kind of interesting, because historically we have 
always wanted to have one every 2 years. So 2 years ago we had 
one, but before that it was 7 years. So this is significant. We 
are going to be highlighting the importance of rebuilding 
America's crumbling infrastructure and the national economic 
benefits that this infrastructure supports.
    The U.S. marine transportation industry supports $2 
trillion in commerce and creates jobs for over 13 million 
people. Forty States are directly served by Corps ports and 
waterways. The annual economic benefit to our Nation from our 
investments in Corps projects averages about $110 billion a 
year. That means for every dollar we invest, we get $16 in 
benefits.
    If we, as a country, ignore the problems facing our 
waterway and our port and our flood control infrastructure, 
those benefits and jobs will be at risk. That is why it is so 
important for Congress to enact our Water Resources Development 
Act every 2 years.
    You see, it is kind of our best kept secret, Senator Boxer. 
We are the Nation's most eminent port, and a lot of people 
don't know that.
    Senator Boxer. That is amazing.
    Senator Inhofe. If there was time, I would tell you the 
story that goes with it. And the guy we are looking at here, 
one of our witnesses, Bob Portiss, I have known him probably 
since he was in college, I guess.
    Anyway, thanks to Oklahoma's ports and robust lakes, we 
also have more miles of freshwater shoreline in the State of 
Oklahoma than any of the 50 States. Did you know that?
    Senator Boxer. Is there a test after this?
    [Laughter.]
    Senator Inhofe. The McClellan-Kerr Arkansas River 
Navigation System is one of those waterways that the Corps 
manages. It is 445 miles long and spans Arkansas, eastern 
Oklahoma. The Port of Muskogee and the Tulsa Port of Catoosa 
are home to over 70 companies and industries employing more 
than 6,500 Oklahomans, creating an overall economic impact of 
more than $400 million to my State each year. Bob Portiss can 
testify to that impact firsthand. We have had the opportunity 
to work with the Port of Catoosa and its economic development 
for years.
    However, the impact of the waterway is not limited to just 
Oklahoma and Arkansas. While Oklahoma ports are the furthest 
inland of any other port in the United States, our ports export 
products from other States, as close as Kansas and as far away 
as Idaho, which then travel to other ports around the United 
States and the world.
    Markets outside the United States represent 73 percent of 
the world's purchasing power, 87 percent of its economic 
growth, and 95 percent of its consumers. To be competitive, the 
United States must make infrastructure investment part of its 
growth strategy.
    We are also faced with aging reservoirs that provide our 
communities with water and protect them during flood events. In 
the past year, my State has experienced two significant rain 
events, and it is because of our existing infrastructure that 
we did not suffer more damage than we did. I remember going in 
a helicopter, seeing how they are containing just the right 
amount, and did a masterful job, you guys did in the State, 
Bob.
    Thanks to the projects of both the Arkansas River and the 
Red River Basin, more than $500 million in damages were 
prevented in Oklahoma, Kansas, Arkansas, Texas and Louisiana 
after historic rainfall this past spring. Overall, the Corps' 
Southwest Division calculated that our water resources project 
saved our communities $13 billion in damages in the south 
central and southwest areas of the United States.
    This committee can't singlehandedly direct more funds to 
our water resources, but we can create policies that foster 
more cooperation between those that maintain the infrastructure 
and those that depend on the infrastructure. What we are saying 
here is we are not an appropriation committee; we are an 
authorization committee.
    We created some of these policies in WRRDA 2014, but we 
need to do more by fostering partnerships between Federal, 
State, local, and private interests. We can unleash an 
investment in public infrastructure, and in doing so allow 
American businesses to remain competitive with global 
competitors.
    Both Senator Boxer and I have made passing the WRDA bill in 
2016 a top priority. With passage of the FAST Act, our 
transportation bill, our committee has proven that we are able 
to work together in a bipartisan level to develop legislation. 
Senator Boxer and I have a long history of working together and 
have proven that when we share the common goal we are able to 
work together to accomplish it. That is why I am confident that 
we will be able to move a bill through the committee this 
spring and pass a WRDA bill for 2016.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Today's hearing on the importance of enacting a Water 
Resources Development Act or WRDA will highlight the importance 
of rebuilding America's crumbling infrastructure and the 
national economic benefits that this infrastructure supports.
    The U.S. marine transportation industry supports $2 
trillion in commerce and creates jobs for over 13 million 
people. Forty States are directly served by Corps ports and 
waterways. The annual economic benefits to our Nation from our 
investments in Corps projects average about $110 billion a 
year. That means for every dollar we invest, we get $16.60 in 
benefits. If we as a country ignore the problems facing our 
waterway, port, and flood control infrastructure, those 
benefits and jobs will be at risk. That is why it is so 
important for Congress to enact a Water Resources Development 
Act every 2 years.
    Thanks to Oklahoma's ports and our robust lake and flood 
control systems, I am very familiar with the importance of our 
Nation's waterways and water resources infrastructure.
    The McClellan-Kerr Arkansas River Navigation System 
(MKARNS) is one of those waterways that the Corps manages. It 
is 445 miles long and spans Arkansas and the eastern part of 
Oklahoma. The Port of Muskogee and the Tulsa Port of Catoosa 
are home to over 70 companies and industries employing more 
than 6,500 Oklahomans, creating an overall economic impact of 
more than $400 million to my State each year. Bob Portiss can 
testify to that impact first hand. We have had the opportunity 
to work with the Port of Catoosa and economic development for 
years.
    However, the impact of the MKARNS is not limited to just 
Oklahoma and Arkansas. While Oklahoma ports are the furthest 
inland of any other port in the U.S., our ports export products 
from other States as close as Kansas and as far as Idaho, which 
then travel to other ports around the U.S. and the world.
    Markets outside the United States represent 73 percent of 
the world's purchasing power, 87 percent of its economic 
growth, and 95 percent of its consumers. To be competitive, the 
United States must make infrastructure investment part of its 
growth strategy.
    We are also faced with aging reservoirs that provide our 
communities with water and protect them during flood events.
    In Oklahoma we have more miles of freshwater shoreline than 
any other State, with 200 manmade lakes. In the past year my 
State has experienced two significant rain events, and it is 
because of our existing infrastructure that we did not suffer 
more than damage than we did.
    Thanks to the projects in both the Arkansas River and Red 
River Basins, more than $500 million in damages were prevented 
in Oklahoma, Kansas, Arkansas, Texas, and Louisiana after 
historic rainfall this past spring. Overall, the Corps' 
Southwest Division calculated that our water resources projects 
saved our communities $13.3 billion in damages in the south 
central and southwest areas of the U.S.
    This committee can't single-handedly direct more funds to 
our water resources. But we can create policies that foster 
more cooperation between those that maintain the infrastructure 
and those that depend on the infrastructure.
    We created some of these policies in WRRDA 2014, but we 
need to do more. By fostering partnerships between Federal, 
State, local, and private interests, we can unleash an 
investment in public infrastructure, and in doing so allow 
American businesses to remain competitive with global 
competitors.
    Both Senator Boxer and I have made passing a WRDA in 2016 a 
top priority. With passage of the FAST Act, our committee has 
proven that we are able to work together on a bi-partisan level 
to develop legislation. Senator Boxer and I have a long history 
of working together and have proven that when we share a common 
goal we are able to work together to accomplish it. That is why 
I am confident that we will move a bill through committee this 
spring and pass a WRDA in 2016.
    I look forward to hearing from our witnesses, and I thank 
them for their testimony.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Mr. Chairman, I agree with you, we are going 
to do this, and I am so excited to be working on WRDA with you 
again. We show the entire Senate that this committee can come 
together on infrastructure. We know there are other issues 
where it is just Venus and Mars, and that is the way it is. So, 
for me, I want to focus on this.
    Every time we had a hearing on the environment, I leaned 
over and said, when we are getting to WRDA? And I couldn't be 
more pleased. And I think you teach us a lot about your State 
and how much it relies on this type of program, and how this 
type of program that we do in WRDA delivers sound economic 
growth and good jobs. It involves the movement of goods, it 
makes sure that we can deliver clean water, and that is what I 
want to really stress in my remarks, because the drinking water 
emergency in Flint, Michigan puts a spotlight on our national 
infrastructure challenges.
    This is a great Nation, but a lot of our infrastructure is 
getting old. And we all know, most of us who own our own homes, 
as an example, or we own our cars, for an example, you can't 
just let it go; you have to stay on top of it, you have to 
maintain it. And in the case of water, the health and safety of 
children and families depend on safe drinking water.
    So as we develop our new WRDA, I am hopeful we can work 
together, and I know we will, to address the need to invest in 
our aging infrastructure. The lead poisoning of kids in Flint 
highlights the need for a modern infrastructure system that 
will keep our families safe from toxins such as lead in their 
drinking water. There is no safe level of lead in children. The 
effects of lead are generally irreversible, and it harms the 
brains and nervous system of children and developing fetuses.
    The American people have a right to expect us to make sure 
that their water is safe when they turn on their faucets, and 
it is truly a State and national priority and local priority. 
It is something we have to all work together on. But millions 
of homes across America receive water from pipes that date to 
an era before scientists knew the harm caused by lead exposure. 
And some major cities--including, I am sure, some of our 
cities--installed drinking water pipes more than 100 years ago. 
So, ipso facto, they are a potential crisis waiting to happen.
    In a recent New York Times, Eric Olsen--some of you may 
remember he was my former staffer here--said, ``You think our 
roads and bridges aren't being fixed? The stuff underground is 
totally ignored. We are mostly living off the investment of our 
parents and grandparents for our drinking water.'' And that 
article was printed in the New York Times, actually, yesterday.
    Aging pipes, that is a nationwide problem, Mr. Chairman. As 
the Detroit Free Press recently reported. Listen to this: About 
10 million American homes and buildings receive water from 
service lines that are at least partially lead, according to 
the EPA. And the American Society of Civil Engineers gives our 
Nation's drinking water infrastructure a D. Now, we are going 
to hear this today; a D. And I hesitate to put this number out 
there because it is so big it is frightening, but they say the 
aggregate investment that we need over time is $1.7 trillion, 
by 2050. So we have some years, but that is a number we have to 
grapple with.
    The next WRDA bill gives us a chance to address our aging 
drinking water infrastructure, and I believe the next bill 
should enable communities to identify the infrastructure that 
poses a threat to public health. And we can use existing 
programs, Mr. Chairman; we don't need new programs. We could 
use the State Revolving Fund and WIFIA, which you and I 
created, to target investment where it is needed most. And 
according to your staff, Alex told me yesterday that the 
leverage of that WIFIA Fund is 60 to 1. That is incredible.
    Senator Inhofe. That is right, as opposed to 10 to 1 for 
TIFIA.
    Senator Boxer. I think it is 30 to 1 in TIFIA.
    Senator Inhofe. Is it?
    Senator Boxer. I do. But it is much greater. So we have a 
chance to do this.
    I just want to touch on a couple of other things. I will 
put my whole statement in the record, if you don't mind. But I 
do want to close just talking about a couple of issues in my 
State that I am going to work hard to address. And it just 
doesn't affect one State like mine.
    The drought is very serious. We have been so fortunate to 
have some really heavy snowfall, and all of a sudden it has 
turned dry and hot. My son was telling me yesterday, in 
Oakland, where it is usually really chilly at this time, it was 
81 degrees. So we are facing changes in the climate. And 
without getting into an argument over why or how, it doesn't 
matter, it is here, so we need to do something.
    So I am talking to my chairman about looking at Desal, 
recycling, things that we really should encourage. I met with 
my Republican mayor of San Diego yesterday, whom I love, and he 
is pushing hard on Desal. They actually have a plant, I am 
going to go see it. It is working. It is expensive. We need to 
help them get the costs down.
    I also think that we have to look at special bodies of 
water that are in trouble. The Salton Sea in California is an 
extraordinary iconic sea that had its heyday in the 1950s, and 
now, with the drought, it is in decline. And I won't go into it 
here because I don't want to take our time, except to say I 
will be working with colleagues to see if we can address the 
critical infrastructure needs, look at these water bodies that 
are in crisis, and work to create jobs that support commerce 
and protect public safety.
    Mr. Chairman, it is a privilege to work with you on WRDA.
    [The prepared statement of Senator Boxer was not received 
at time of print.]
    Senator Inhofe. Thank you, Senator Boxer.
    We will go ahead and start with Bob Portiss and just work 
our way down, and if you will submit to questions, we will look 
forward to it.
    Bob Portiss. Let me introduce what he does. He runs our 
port there, the Port of Catoosa. For how many years now, Bob?
    Mr. Portiss. About a hundred.
    [Laughter.]
    Senator Inhofe. That is right. And I've been with you since 
the very beginning.
    All right.

 STATEMENT OF BOB PORTISS, PORT DIRECTOR, TULSA PORT OF CATOOSA

    Mr. Portiss. Again, my name is Bob Portiss, and I have been 
affiliated with the Tulsa Port of Catoosa since 1973 and as its 
Port Director since July 1, 1984. Our port is located at the 
Head of Navigation for the 445-mile-long McClellan-Kerr 
Arkansas River Navigation System, located 15 miles from 
downtown Tulsa, Oklahoma. It is both an honor and privilege for 
me to appear before you today, especially since my long-time 
friend and our senior Senator is chairman. Senator Inhofe's 
numerous contributions to our industry and our port began in 
1978, when he began his 6-year term as mayor of Tulsa.
    Prior to passage of the Rivers and Harbors Act of 1946, 
which authorized construction of our waterway, Congress made it 
clear that before Federal moneys were invested in the new 
waterway the principal cities located along it would need to 
commit to develop a port to insure that business and industry 
would have access to barge transportation.
    Tulsa fulfilled this commitment by acquiring its current 
2,500 acres of contiguous land and developing it into one of 
our Nation's largest inland ports with its current complement, 
as Senator Inhofe mentioned, of 72 industrial facilities that, 
as of a year ago, employed 4,200 people and whose annual 
waterborne commerce averaged 2.5 million tons. Congress, in 
turn, agreed to construct and maintain our waterway with its 18 
locks and dams to provide a minimum depth of 9 feet.
    This partnership worked well until a few years ago when the 
backlog of maintenance reached an unprecedented $170 million, 
$70 million of which is now deemed critical by the Corps. As 
this backlog continues to increase so will the probability of 
lengthy failures. Recognizing this, we worked to include a 
provision in WRRDA 2014 that would allow us to partner with the 
Corps to help address such failures.
    That provision, specifically, is section 1024, which 
authorizes the Secretary of the Army to accept materials and 
services from us to be used to repair and restore projects that 
were damaged or destroyed as a result of an emergency. 
Implementation guidance, however, has not yet been released for 
this section.
    We are now very concerned because we understand that when 
the implementation guidance for this section is issued, it will 
be limited to emergencies resulting from a natural disaster.
    The Corps has stated that they embrace the intent of 
section 1024, but have not found ways to overcome the legal 
constraints of the rules and regulations they must follow. In 
order to carry out section 1024 as intended, we believe that 
WRDA 2016 presents an opportunity for you to address any 
concerns that the Corps might have. In that regard, we would 
urge you to modify section 1024 of WRRDA 2014 to confirm that 
an emergency is not limited to natural disasters but includes 
failures resulting from a lack of maintenance. We would further 
recommend that authority to implement this provision be 
delegated to the district commanders to ensure prompt action.
    Our Nation's 25,000 miles of inland waterways handle over 
600 million tons of cargo annually, at a cost typically $11 
cheaper than other modes. This amounts to an average annual 
savings of $7 billion for our economy.
    As to the impact on the central portion of our Nation, over 
20 million bushels of grain from Kansas and Oklahoma wheat are 
shipped on our waterway annually to the Gulf of Mexico at a 
cost of about the same price as the price of a first-class 
postage stamp. Corresponding savings are realized for other 
commodities including project cargo that typically saves our 
shippers as much as $100,000 per load. Last, but not least, 
more than 8,000 direct maritime jobs have been created along 
the McClellan-Kerr between Muskogee and Tulsa, Oklahoma, as a 
result of some $5 billion of industrial investments. All of 
this is now at risk if we do not adequately maintain our 
waterway, something that we are ready and willing to help with.
    One important answer to the critical needs of our Nation's 
waterway system is to make sure the Congress passes a WRDA bill 
in 2016 and every 2 years thereafter. The Congress made that 
commitment in WRRDA 2014, and we are very appreciative of this 
committee's leadership and commitment in working to develop a 
WRDA this year to ensure the reliability of the system and to 
build upon the reforms adopted in WRRDA 2014.
    I also recognize that adequate funding needed to maintain 
our water resources infrastructure will continue to be a 
challenge. The Congress recognized this in WRRDA 2014 through 
several provisions that allowed for alternative funding 
mechanisms, including a public-private partnership model. WRDA 
2016 presents an opportunity to further enhance and improve 
those provisions, which would enable us to overcome the current 
critical backlog that will ensure the reliability and 
sustainability of the MKARNS, and therefore our maritime ports. 
Given our ability to successfully work with our Corps Districts 
and Division, the partnership we have developed along our 
waterway may well serve as a model that can be looked upon 
nationwide.
    I really appreciate and am honored to have this 
opportunity. Thank you very much, and I look forward to working 
with you as you develop a WRDA 2016.
    [The prepared statement of Mr. Portiss follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Inhofe. Thank you, Mr. Portiss.
    John Swearingen is the Senior Vice President of Marathon 
Petroleum Corporation.
    Mr. Swearingen.

 STATEMENT OF JOHN SWEARINGEN, SENIOR VICE PRESIDENT, MARATHON 
                     PETROLEUM CORPORATION

    Mr. Swearingen. Good morning, Chairman Inhofe, Ranking 
Member Boxer, and members of the Committee. My name is John 
Swearingen, and I am the Senior Vice President of 
Transportation and Logistics at Marathon Petroleum. Thank you 
for the opportunity to share our story about the importance of 
a strong 21st century energy transportation system.
    Such infrastructure plays a critical role in our company's 
ability to continue to safely deliver affordable petroleum 
products to American consumers. Marathon Petroleum is 
headquartered in Findlay, Ohio, and with our seven plant 
refining network, we are the Nation's fourth largest 
transportation fuel manufacturer. We are also one of the 
largest marketers and transporters of petroleum products in the 
U.S.
    A key part of our business is our inland river fleet, which 
is one of the largest private domestic fleets of inland 
petroleum product barges in the U.S. Our fleet consists of 219 
inland waterway towboats and barges that we wholly own, 
accompanied by another 22 towboats and barges which are leased. 
We also have another 30 boats and 100 barges under contract 
with third parties.
    Our fleet carries products primarily on the Ohio River 
between Pittsburgh and Paducah, Kentucky. Other movements are 
also regularly scheduled on the Mississippi, Illinois, 
Allegheny, Monongahela, Kanawha, Tennessee and Cumberland 
Rivers. All of these river systems have locks and dams built 
and maintained by the U.S. Army Corps of Engineers. We also own 
distribution storage facilities throughout the South and 
Midwest, which are also accessed via water.
    Just recently, the U.S. became the No. 1 producer of oil 
and natural gas, and we are a net exporter of refined products. 
This has made energy more affordable and our country more 
energy secure. In order for Americans to fully realize the 
benefit of this abundant and affordable energy, investments in 
energy transportation infrastructure are absolutely critical.
    Moving commodities by barge and tanker is extremely 
efficient. For example, moving the amount of liquid volume on 
just five 8-barge towboats is equivalent to moving the same 
volume over the road with 5,000 semi-tractor trailers. However, 
inadequate investment can minimize these efficiencies and 
result in bottlenecks in commerce.
    Unscheduled and unplanned lock outages, like those we have 
experienced on the Ohio River over the past decade, are 
extremely disruptive and lead to increased cost of everyday 
products, commodities, and raw materials for the end consumer. 
Nearly 40 percent of all domestic waterborne trade is crude oil 
or petroleum products, and 40 percent of the crude oil arriving 
at refineries is being shipped via water. Therefore, the longer 
it takes for a shipment to arrive due to backlogs at locks and 
dams, the more expensive petroleum products will become.
    It is well known the Army Corps of Engineers has billions 
of dollars of deferred maintenance activities due to 
insufficient funding. These maintenance projects are critical 
to our industry's operation. Today we functionally have a fix-
as-fail posture when it comes to our inland waterway 
infrastructure. We cannot afford to move toward a fail-to-fix 
posture.
    Congress has already taken a number of positive steps 
forward in the long road toward recovery. The 2014 WRDA bill 
established a framework for authorizing full distribution of 
the revenues paid by the inland towing industry into the Harbor 
Maintenance Trust Fund. We appreciate that Congress included 
this provision and appropriated the authorized amounts last 
year. We now encourage Congress to maintain the WRDA authorized 
distribution levels and to appropriate the authorized amount of 
71 percent of Trust Fund revenues expected for fiscal year 
2017.
    We also encourage Congress to appropriate the $3.1 billion 
in the operations and maintenance account for the Army Corps of 
Engineers and further appropriate the full use of the Inland 
Waterways Trust Fund, which is based on a 29 cents per gallon 
user fee assessed on vessels operating on the inland system.
    Last, there is currently a near final feasibility study for 
the Pittsburgh area to modernize Emsworth, Dashields, and 
Montgomery Locks and Dams. This study has been under 
development for more than 12 years and has cost more than $17 
million. We strongly encourage the committee to authorize the 
Upper Ohio River Navigation Study in the 2016 WRDA bill.
    Marathon Petroleum Corporation stands ready to work with 
the Senate Environment and Public Works Committee as well as 
other committees of jurisdiction and appropriators. We are a 
willing partner in the effort to build and maintain a 21st 
century energy infrastructure network. The American public 
deserves no less. Thank you.
    [The prepared statement of Mr. Swearingen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
           
    Senator Inhofe. Thank you, Mr. Swearingen.
    Rob Roberson is the Director of Corporate Logistics at 
Nucor Corporation.
    Mr. Roberson.

  STATEMENT OF ROB ROBERSON, DIRECTOR OF CORPORATE LOGISTICS, 
                       NUCOR CORPORATION

    Mr. Roberson. Good morning, Chairman Inhofe and Ranking 
Member Boxer. Thank you for the opportunity to testify today. 
As the Chairman said, I am Rob Roberson, Director of Corporate 
Logistics for Nucor Corporation.
    Nucor is the Nation's largest steel manufacturer and 
recycler, with the capacity to produce almost 29 million tons 
of steel annually. Last year, the company recycled nearly 17 
million tons of scrap steel and turned it into new steel that 
is used in construction, automotive, and energy applications, 
just to name a few. We are a company of over 23,000 teammates, 
located primarily in the U.S. and Canada.
    Inland waterways and ports are an essential part of our 
Nation's transportation system and economy, creating jobs and 
revenue regionally and nationally. As a company that relies on 
just-in-time delivery of products to our customers, an 
efficient transportation infrastructure is vitally important. 
Waterway infrastructure is not only important for moving 
finished steel products to market, but also for bringing raw 
materials to our steel mills. We have several steel mills 
located on rivers which bring in more than 90 percent of their 
raw materials by water. Nucor's scrap steel business, The David 
J. Joseph Company, transports approximately 3,500 barges per 
year. Barges provide a safe, efficient, environmentally 
friendly and cost-effective way to move goods.
    In order for the U.S. to remain economically competitive, 
we must continue to invest in our ports and inland waterways. 
Every barge we utilize can move up to 1,700 net tons of raw 
material or product. This is the equivalent of 17 railcars, or 
almost 80 trucks. When we fail to adequately maintain our ports 
and inland waterways, companies like ours are forced to use 
more costly and less efficient shipping alternatives, which 
threatens our ability to deliver goods to our customers in a 
cost-effective manner, a key competitive strength of our 
company for almost 50 years.
    A well-functioning inland waterways and port system also 
gives Nucor access to an effective distribution channel to 
fight against surging steel imports that have crippled much of 
the domestic steel industry.
    The American steel industry is in crisis. A glut of global 
steel production has led to the dumping of steel into the U.S. 
market at historic levels and in violation of international 
trade rules. Despite the highest level of domestic steel 
consumption since 2006, less efficient foreign producers are 
benefiting, not domestic producers. Due to unfairly traded 
imports, the American steel industry's capacity utilization in 
2015 was less than 70 percent, and pricing for most steel 
products collapsed.
    To help fight the import surge and to better serve the 
needs of our customers, Nucor is expanding our capabilities to 
produce higher quality offerings. We recently invested $100 
million to modernize our South Carolina mill in order to 
produce wider and lighter sheet steel for the automotive 
industry. The ability to use our ports and our waterways as a 
means to provide the most competitive freight solution to the 
market gives us an advantage over our foreign competitors.
    For these reasons, we appreciate the action Congress took 
in 2014 passing the Water Resources and Reform Development Act, 
and we are pleased Congress is getting an early start on the 
next WRDA reauthorization.
    The 2014 legislation made many important changes to the way 
water infrastructure projects are approved and funded. That 
bill helped streamline project approval by removing redundant 
studies and expediting permits. It also recognized the 
importance of funding for harbor maintenance and the dredging 
of inland waterways. We were pleased that the legislation also 
encouraged the use of resilient construction techniques and 
materials. The 2016 reauthorization can build on these changes 
and address several issues that have emerged since the last 
WRDA bill was passed.
    The last WRDA legislation included Buy America provisions 
in the newly created WIFIA program and permanently applied Buy 
America to the EPA's Clean Water State Revolving Fund projects. 
We would like to see these provisions permanently applied to 
the EPA's Drinking Water State Revolving Fund in the upcoming 
reauthorization. We believe that it is good policy to apply Buy 
America preferences to taxpayer-funded programs, particularly 
those administered by the EPA, which heavily regulates domestic 
industries. This will help stimulate job growth in the iron and 
steel industries and encourage research and development and 
capital investment here at home.
    Regular investment will ensure our waterway infrastructure 
remains competitive and our economy will continue to grow, and 
we appreciate the work this committee will undertake to 
reauthorize WRDA. We also encourage appropriators to follow 
through with funding to ensure that the merits of WRDA 2016 are 
fully achieved.
    Since 2009, Nucor has invested over $6 billion in our U.S. 
facilities because we believe so strongly in the American 
economy and American workers. We want to continue investing 
here in America. We need Congress' help to ensure a competitive 
environment here at home that allows domestic steel producers 
to realize the benefits of a growing U.S. economy.
    Thank you.
    [The prepared statement of Mr. Roberson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
    Senator Inhofe. Thank you, Mr. Roberson.
    Norma Jean Mattei is President-Elect of American Society of 
Civil Engineers.
    Dr. Mattei.

   STATEMENT OF NORMA JEAN MATTEI, PRESIDENT-ELECT, AMERICAN 
                   SOCIETY OF CIVIL ENGINEERS

    Ms. Mattei. Good morning, Chairman Inhofe, Ranking Member 
Boxer, committee members and staff. Thank you for this 
invitation. My name is Norma Jean Mattei, and I am a 
professional engineer in the State of Louisiana, I am Professor 
of Civil Engineering at the University of New Orleans; I am a 
member of the Mississippi River Commission. But I am here today 
as President-Elect of the American Society of Civil Engineers.
    The American Society of Civil Engineers has over 150,000 
civil engineers globally. We are well known, as Senator Boxer 
mentioned, for our report card. This is our 2013 report card on 
America's infrastructure. It is a comprehensive document that 
takes a look at assessing 16 sectors of infrastructure across 
the Nation. We are about to work on our 2017 report card, just 
as you are working on WRDA 2016, and we are hoping that this 
important work that you do will raise the grades, because let 
me tell you about the grades.
    Our 2013 report card gave a grade overall to our 
infrastructure of D+. When you look at levees, a D^; inland 
waterways D^; dams a D; drinking water a D; wastewater a D; 
ports a C.
    [Laughter.]
    Those grades really aren't that good, are they? So, 
frankly, I am going to steal a line from a fellow professor and 
GM of D.C. Water: ``We sometimes give people Ds because it is 
just too hard to flunk them.''
    If we don't invest in our infrastructure, the U.S. risks 
losing competitiveness, we risk losing jobs; it costs our 
Government and it cost the American family. In our Failure to 
Act economic report we assess long-term economic impacts of not 
properly investing in our infrastructure. The report concludes 
that our Nation's deteriorating ports and inland waterways 
infrastructure will cost the American economy more than 800,000 
jobs and suppress the growth of our GDP by a little less than 
$7 billion in 2020.
    But we know that flood control projects, as an example, 
have a return on investment of between 4 and 20, and sometimes 
more, times their cost. It's not only a good return on 
investment; it is simply good fiscal responsive policy.
    WRDA bills are powerful; they are important. More than 20 
years ago, Congress authorized the National Dam Safety Program. 
WRRDA 14 reauthorized that program, and it also created a new 
national levee safety initiative. Let's talk about the dams.
    We now know that we have an inventory nationally of over 
87,000 dams. We assess their condition. We know how they are 
doing; we know their age. Their average age is about 54 years. 
That is about as old as me. And some of them are older than me. 
We now provide training to State dam safety programs.
    With increasing population and greater development below 
those dams, we continued to see the numbers of high hazard dams 
increase to nearly 14,000 in 2012. The deficient dams number 
about 4,000, and unfortunately, 2,000 of those are high hazard 
also.
    I couldn't tell these numbers to you, we wouldn't know them 
but for WRDA. So an authorization is very, very important to 
public safety programs.
    Unfortunately, the levee side of the story is very 
different. While the dam safety program has been 20 years old, 
it wasn't until 2014 that Congress authorized the first program 
to inventory levees. The sad truth is we have not invested a 
single dollar into that program. So levees and dams, we don't 
really want to see those things fail. We use them every day, 
but the public does not really see the benefit until we have a 
disaster. They protect billions of dollars of property and 
hundreds of thousands of families. But we simply struggle today 
with maintaining this infrastructure, let alone building new 
and modernized sustainable infrastructure.
    I have an example, though, of where we did build something 
that is state-of-the-art. I live in New Orleans, and because of 
a disaster, the Hurricane Storm Surge and Risk Reduction System 
outside of New Orleans is remarkable. But it was completed 
because there was a sense of urgency, there were enough funds 
appropriated, and there was a project delivery process that 
worked. If these investments are not made in conjunction with 
policy reforms, families will have a lower standard of living. 
Our Nation will lose ground in the global economy. As 
conditions continue to deteriorate, we estimate that the cost 
to American families alone each year is a little over $3,000.
    We look forward to working with the committee as it drafts 
this new legislation. Pay special attention to alternate 
financing, multiple project benefits and ecosystem restoration. 
New legislation this Congress will give regular order again; it 
will allow project managers certainty, the ability to plan.
    And finally, in a few weeks, members from 50 States of our 
organization will come to D.C. to meet with you, so please take 
the time to meet with these experts in infrastructure. They 
will be able to give you some information and more details on 
the state of our infrastructure and how important investment is 
to us.
    [The prepared statement of Ms. Mattei follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Inhofe. Thank you, Dr. Mattei.
    Kyle Makarios is the Director of Government Affairs, North 
Central States Regional Council of Carpenters.
    Mr. Makarios.

  STATEMENT OF KYLE MAKARIOS, DIRECTOR OF GOVERNMENT AFFAIRS, 
      NORTH CENTRAL STATES REGIONAL COUNCIL OF CARPENTERS

    Mr. Makarios. Thank you, Chairman Inhofe, Ranking Member 
Boxer, distinguished members of this committee. I am honored to 
join you today. My name is Kyle Makarios, and I am the Director 
of Government Affairs for the North Central States Regional 
Council of Carpenters. My union represents 25,000 carpenters, 
millwrights, pile drivers, and floor coverers in Wisconsin, 
Iowa, Minnesota, Nebraska, South Dakota, and North Dakota. I 
also serve on the Board of the Upper Mississippi Waterways 
Association, a Minnesota-based association of businesses who 
rely on reliable navigation on the Mississippi River to move 
goods.
    The United Brotherhood of Carpenters and Joiners of 
America, my national union, represents over a half-million men 
and women who make their living building our Nation. Many of 
those members are employed building the projects directly under 
the purview of this committee, the public works and 
infrastructure projects that connect our country internally and 
to the world. Along with several other crafts, including 
operating engineers and laborers, our members perform the bulk 
of the heavy construction and maintenance of the Nation's ports 
and waterways, locks, and dams. Every day across this country, 
thousands of our members go to work for hundreds of 
construction contractors building and providing maintenance on 
locks and dams and keeping our key navigation channels open.
    I am here today to assure this committee that enacting a 
new Water Resources Development Act is very important to our 
Nation's construction workers and the businesses who hire them, 
as well as those that are part of our supply chain. Previous 
enactments of WRDA have authorized projects that are currently 
putting thousands of our members to work, and more steps are 
needed to continue to upgrade and modernize the navigation 
potential of our country's inland waterways.
    As you just heard, the American Society of Civil Engineers' 
2013 Report Card for America's Infrastructure points out the 
dramatic need to increase investment in order to ensure 
reliable, efficient movement of commodities in this country. I 
applaud the bipartisan effort that this committee has helped 
lead--both in this Congress and in the previous--to address 
this urgent need to upgrade both surface and waterways 
transportation infrastructure.
    Not only is enacting a new Water Resources Development Act 
important to our members who work directly on heavy 
construction and civil works projects, but it is equally 
important to many other members. Farmers and businesses rely on 
a reliable and efficient transportation network to get goods to 
market. A barge leaving my home town of Saint Paul, Minnesota, 
must travel through 27 lock chambers to get downriver to the 
Port of New Orleans. It is critically important for the economy 
of States along the Upper Mississippi River that those 
businesses and farmers have a high degree of confidence in that 
system so that they can continue to employ our members building 
and maintaining their grain elevators, steel mills, 
manufacturing plants, power generation facilities, cement 
plants, oil refineries, and hundreds of other businesses that 
rely on river transportation.
    As the committee considers reauthorization of the Water 
Resources Development Act, I would respectfully voice support 
for a couple of key policy initiatives being advocated by the 
Waterways Council, Inc., a national coalition of which we are a 
member. We support increasing the existing threshold defining a 
major rehabilitation project from $20 million to $50 million, 
and authorizing the Calcasieu Lock, Louisiana, and the Upper 
Ohio River Chief's Reports.
    We also recognize and applaud the waterways industry's 
successful advocacy for an increase in their own user fee on 
fuel that was implemented by the last WRDA and oppose 
additional fees on the waterways at this time. But it is very 
certain that Congress should maximize the investment levels in 
these projects in order to put our members and other 
construction workers to work.
    Mr. Chairman, let me wrap up by reiterating that Congress, 
and this committee in particular, can serve a critical need for 
this country by leading a bipartisan effort to ensure that our 
Nation's inland waterways remain a reliable and cost-effective 
route for moving bulk commodities to and from the businesses 
and farms in our communities. In doing so, you will directly 
employ many thousands of construction workers and give 
confidence to private business whose investments will employ 
many thousands more.
    Thank you for the opportunity to comment.
    [The prepared statement of Mr. Makarios follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
    Senator Inhofe. Thank you, Mr. Makarios.
    We will now have questions. And I think it would be very 
important, all of the members of the panel stress this every 2 
years to have one. As I mentioned before, we went 7 years the 
one before last without having one. That is very important. So 
it is important that your members be aware to use their 
influence on members to make this very popular program, and I 
say the same thing to all of you.
    Mr. Portiss, Mr. Swearingen talked about the bottleneck 
that can happen on the waterways, and that is a frightening 
thing. Every time I look at one of our locks and dams, I think 
what more is that going to affect.
    What would be the financial loss to the State of Oklahoma 
if a lock failure closed the McClelland-Kerr?
    Mr. Portiss. Excellent question, sir. Thank you. Two 
million dollars a day would be the hit on our State if that 
waterway were to shut down. We determined that through an 
input-output analysis about 6 years ago; and that is just the 
economic loss as far as the State as a whole is concerned. But 
the investment by the citizens of city of Tulsa and Rogers 
County, gone; no more waterway. We would have a nice industrial 
park, but no port.
    Senator Inhofe. You spent some time in your testimony 
talking about the thing that we put in the last WRDA bill that 
allows other people to get involved financially to help, and 
the interpretation by the Corps of Engineers seemed to be that 
it has to be a result of a natural disaster. Is that accurate?
    Mr. Portiss. That is correct. Right.
    Senator Inhofe. Did you think at the time, when we added 
that language, that that would be the problem, that would 
happen?
    Mr. Portiss. Absolutely not.
    Senator Inhofe. I didn't either. I would ask you this 
question. What difference does it make if it is using outside 
Government resources to do something, to make an approval on a 
public project, whether that resulted from a natural disaster 
or otherwise?
    Mr. Portiss. Senator, it shouldn't make any difference at 
all. If you have an emergency situation occur or we have a 
failure, goodness sakes, why can't we step in and provide and 
help them with resources they don't have to fix the problem? I 
am not talking about long-term; I am just talking about putting 
a Band-Aid on it, so to speak, so that the waterway can 
continue to operate.
    Senator Inhofe. Do the rest of you agree with that? I am 
talking to the rest of them now.
    Did you agree, Mr. Swearingen? Did you believe that that is 
the way it would be interpreted when that language went in?
    Mr. Swearingen. Yes, Senator. I think it is important, 
though, anything the committee can do to incentivize the Army 
Corps of Engineers to maintain the infrastructure. We have seen 
a number of situations up and down the Ohio River where gates 
have failed to function, and we have been stopped for 50, 60 
days at a cost of millions of dollars. There was one lock where 
the gate literally fell off that took months to repair. So I 
think anything that the committee can do that would incentivize 
the Corps to maintain and do the proactive maintenance that is 
necessary to avoid the significant maintenance outages I think 
is well served.
    Senator Inhofe. That is not my question, though. My 
question is, in the absence of that, we should take full 
advantage of what is out there, outside of Government, to put 
the Band-Aid on, to keep everything moving. That is the concern 
that I have.
    Mr. Swearingen. I think any kind of resourcing needs to be 
brought to bear on the issue, yes, sir.
    Senator Inhofe. How, Mr. Swearingen, would your companies 
and your customers be affected if you couldn't use the waterway 
to ship your fuel, steel, and other products that you make?
    Mr. Swearingen. Many routes that we move, that is the 
primary route for distribution of petroleum products, so any 
time you have some kind of delay or outage for extended period, 
then you have to find alternate transportation routes. 
Typically, that is long-haul trucks, which just simply drives 
the price up.
    Senator Inhofe. And you heard Bob Portiss talk about the 
public-private partnerships. Would your companies benefit and 
be willing to participate in those partnerships also?
    Mr. Swearingen. Well, I think we would have to really take 
a look at it, Senator. I think, again, any kind of resourcing 
that can be brought to bear, we would really have to take a 
look at it and see if that would be something that provides an 
efficient and effective infrastructure funding mechanism. So I 
would not close off any opportunity.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. I want to thank you all for your testimony. 
It is very clear, and it is a call to this committee to step 
up, and we are going to. We are going to step up.
    Mr. Portiss, in your many years of experience, you point 
out in your way that our ports are an economic engine, and 
certainly in Oklahoma. I wanted to point out in California our 
ports employ more than 500,000 people. And if you take a look 
at the indirect jobs across the country because of all the work 
that comes when you are shipping, it is 3 million indirect 
jobs.
    So just in one State, albeit the largest State, 500,000 
direct jobs and 3 million indirect jobs. So I am glad that our 
ports are rated a C. We ought to do a lot better than that 
given the greatness of this Nation.
    Now, Doctor, in your presentation, which I found to be a 
real wake up call, you went through the report card, and I 
would ask unanimous consent to place that in the record at this 
time.
    Senator Inhofe. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. What we are looking at is the best we do in 
this WRDA bill to look at our responsibility is the ports; they 
are a C. But dams are a D, drinking water is a D, inland 
waterways D^, levees a D^. That is just a sad, sad report card. 
If our kids came home with this, we would really be upset, and 
I hope we are going to be upset, and we are going to step up to 
the plate. So we will put that in the record, and I thank you 
for that, and I am so happy you were here and so articulate.
    Now, another thing you say in this report, which I am going 
to quote word for word. When we look at Flint, we all get so 
sad and sick about it, but listen to this: ``It's estimated 
that more than 1 million miles of water mains are in place in 
the United States. The condition of many of these pipes are 
unknown because they're buried underground, out of sight, 
they're owned and operated by various local entities. Some 
pipes date back to the Civil War era and often are not examined 
until there is a problem or water main break, and these breaks 
are becoming more common as there are an estimated 240,000 
water main breaks per year in the United States.''
    So I would ask if I could put that document in the record 
as well.
    Senator Inhofe. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. So, again, Flint is a warning to us, it is a 
wake up call to us. It is something that we have now a moral 
obligation and I think a fiscal obligation to step up to the 
plate on, because when these things happen it costs taxpayers a 
fortune.
    Look what is going on in Flint. We still can't figure that 
out. We are going back and forth, how do you pay for it. 
Prevention is key here, and we know what we have to do. In the 
case of Flint, had they treated the pipes immediately, we 
wouldn't have seen the lead poisoning that we have seen.
    So we have to act. And I often say once you know there is a 
problem and it is hurting people, we have an obligation.
    Now, Mr. Makarios, in your testimony you discuss your 
support for a WRDA bill and the job it represents, and I think 
all of you have made the case; business, labor, everyone. Are 
the jobs created by projects authorized in WRDA good jobs that 
help workers support themselves and their families? Because we 
watch the Presidential, every candidate, whether Republican or 
Democrat, is saying that we have to raise wages and create good 
jobs. Are these good jobs? And could you give us an example of 
the types of jobs supported by WRDA projects?
    Mr. Makarios. Thank you, Senator, I would be happy to. I 
think it is important to keep in mind that a construction 
worker, every job they are ever on, they are working themselves 
out of a job because they are working for a project, and when 
that project ends they have to move on, and there has to be 
another job for them to continue.
    But having said that, these are very good jobs. Our 
members, when they are working, work very hard. When they are 
working today in Minnesota, it is in single digits; they are 
working outside and working very hard under tough conditions. 
And it is hot in the summer, and sometimes they are in the mud, 
and certainly when they are on heavy infrastructure projects, 
they are working on lock and dam projects, that is tough work.
    But they are compensated well. They have great benefits to 
take care of their families. They are paid good wages that take 
care of their families, and when they retire they are able to 
retire with dignity.
    Senator Boxer. Well, thank you for that.
    So I will close with this. We are still recovering from the 
great recession, and what we did on the highway bill was really 
beautiful, how we came together, and we were so proud as a 
committee. No one thought we could do it. We locked in economic 
growth in the transportation industry for 5 years, and we need 
to do the same thing for WRDA every couple years. I am so 
excited about the opportunity.
    And I couldn't imagine a better panel, in all sincerity, 
and I thank you all for your contribution.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. I would like to 
begin by thanking the Chairman and Ranking Member, and really 
this committee for beginning early steps to take action on 
WRDA, because it is important that we exercise our 
constitutional authority to make sure that the projects that 
will be studied and constructed by the Corps of Engineers are 
followed through. I was a conferee on the 2014 bill when I was 
in the House, and I remind everybody we had 91 votes in the 
Senate and 412 in the House, so it was a very overwhelming 
bipartisan support.
    And I would agree with the Ranking Member, it is nice when 
we have consensus that we can build together, because on this 
committee sometimes we just don't have that.
    So I think the panelists have all said it is universally 
agreed that waiting 7 years has a detrimental effect way far 
too long. So this is important to my home State. I am going to 
highlight a little bit.
    As you know, we have a lot of rivers, Mr. Swearingen, move 
a lot of product on our rivers, and one-third of our State's 
coal is shipped by barge. And shipping by barge is large for 
not just coal, but also natural gas and our chemical industry. 
According to the Corps, 32 million tons of commodities are 
moved by barge to and out of West Virginia, and more than half 
of these are shipped to our surrounding States.
    But water navigation is not the only benefit that we see. 
West Virginia's mountainous terrain makes us particularly 
vulnerable for flooding. Currently, thanks to previous WRDA 
legislation, the Corps is working to improve the Bluestone Dam, 
for instance, in Hinton, West Virginia. These improvements on 
this dam will not only allow our families to rest easier, but 
the annual flood damages prevented is estimated to be around 
$80 million.
    So, Mr. Swearingen, you mentioned several details that 
would prove beneficial if we successfully enacted the 
legislation. Could you kind of take the flip side of that and 
highlight for us maybe some of the difficulties and 
uncertainties are that would be associated with us failing to 
act every 2 years?
    Mr. Swearingen. Yes, Senator. I think, again, it comes back 
to the assuredness of affordable, available energy supply, 
because, as you well know, a lot of these water routes are 
truly the only effective, efficient way to deliver 
transportation fuels into the various markets. So if you don't 
have access to those, if you don't have certainty of access, 
then it simply drives up cost to the end consumer.
    Senator Capito. Does it have an impact on your company's 
willingness to invest and reinvest when the uncertainty is not 
there for the next several years?
    Mr. Swearingen. It certainly is a factor. We are very 
committed to our traditional Midwestern markets, South and 
Southeast. But even with that long-term commitment, if you have 
higher costs, higher operating costs, you have to factor that 
in to your long-term decisionmaking. So absolutely it can have 
a negative impact.
    Senator Capito. Thank you. One of the significant policy 
changes that we enacted in the last WRDA bill was the 3-by-3-
by-3 process, where feasibility studies must be completed by 
all three levels of the Corps in 3 years at a cost of no more 
than $3 million. Now, I know it has been less than 3 years 
since the 2014 WRDA bill, but I am wondering has anybody had 
any experience with the 3-by-3-by-3? No. I see a no, no, no, 
no, no. All right, that's five by three nos.
    OK, I assume that probably will take longer to get into 
reality to see how that works. Obviously it is streamlining, 
trying to move these projects further, because time is money. 
These are very expensive projects.
    Dr. Mattei, you mentioned a report card, and I am with the 
Ranking Member there; if my children had brought home those 
report cards, I would go into immediate panic. And I started 
thinking, besides devoting resources and time, how would I get 
out of that, and I think one of the things I would have done 
would be to prioritize levees, dams. They are all very, very 
important. Is there any way from a civil engineering 
perspective that you would prioritize which one of those 
categories needs to bubble up first in terms of repairing our 
Nation's infrastructure?
    Ms. Mattei. Well, I don't think we really should limit 
ourselves to looking at one sector being more important than 
another. It is possibly better to look at each sector, 
prioritize and rank those projects within a sector, and then 
take across all sectors the riskiest, the ones that pose the 
most risk to the American public.
    Senator Capito. So make the decisions based on a risk-based 
decision, which makes a lot of sense when you consider what 
could happen if some of these failures would occur not only in 
commerce, but loss of life, property, and all those other 
things.
    Thank you very much. This has been a great panel. Thank 
you.
    Senator Inhofe. Thank you, Senator Capito.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman. Thank you to both 
you and the Ranking Member for taking up WRDA again.
    Rhode Island was first settled in the 1600s, and in the 
1700s Newport, Rhode Island, was a bigger deal than New York, 
New York. The British put an end to that when they occupied the 
place, and they were not good occupiers. But the result of it 
being a long-old, original State is that we have a lot of old 
infrastructure.
    Here is some new infrastructure from Rhode Island. See 
that? This is a pipe from Kingston Village, 1920s installed, 
and it is already corroded. You can see how little comes 
through that compared to original; and there is a lot more of 
that around for us to work on. There is plenty to be done.
    Senator Boxer. Can we look at that?
    Senator Whitehouse. Just be careful; it is a little dirty. 
Don't get it on your clothes.
    So thank you very much for keeping the focus on this.
    [Laughter.]
    Senator Whitehouse. I wanted to make an additional point, 
and I think I have the sympathy of the Chairman and the Ranking 
Member in this, which is that when we disarmed ourselves of 
being able to do what were then called earmarks, i.e., have any 
specific congressional control over anything, we gave up 
enormous amounts of our legislative power. I had a conversation 
with Chairman Enzi the other day and I said, you know, there 
are lots of traditional fights in Washington; one is party 
versus party. We all know that one. One is executive versus 
legislative; one is member versus staff, we see a certain 
amount of that. And he said don't forget Senate versus House. 
So those are our big four fights. And in the executive versus 
legislative fight, I don't think we have ever seen unilateral 
disarmament by a legislature to the point virtually of self-
mutilation that we did by handing all of this authority over to 
the executive branch.
    Senator Inhofe. This will surprise you, Senator. I agree 
with you.
    Senator Whitehouse. Exactly. We pour money into the Army 
Corps of Engineers and it goes into a pile where they have huge 
lists of projects, and they pick and choose without virtually 
any input from us. Unless you are, I think, one of the real 
senior masters of the universe who they need for appropriations 
and things like that, then I suspect that there is a back 
channel that gets things done. That, to me, is no improvement 
over an open earmark in a public process in a formal committee.
    So I am keen to work with members of this committee to try 
as best we can to define and refine our response to the earmark 
rule so we are not simply emasculating ourselves and shifting 
the power over to executive officials who then have zero 
accountability to us, particularly if we only do this every 7 
years. So for all those reasons doing this every 2 years is 
something that I applaud. I know it takes a lot of effort, and 
for the Chairman and the Ranking Member to have done this, I 
appreciate it.
    I would like to mention one other topic just by way of if 
somebody else is interested in working with me on this. When we 
think of dams, we often think of big working dams. We think of 
power generating dams, Hoover Dam, we think of people damming 
the Columbia and things like that.
    Rhode Island has hundreds of dams. We are not a big State. 
We have hundreds of dams going back through our whole history. 
Some of them it is not even clear from their title who even 
owns them any longer. And trying to get a little hydro system 
installed, trying to get a canoe or kayak passage approved, 
trying to get permission to just route the stupid thing out so 
that its collapse in a crisis is no longer a health or safety 
threat to people below is a very, very complicated set of 
procedures. It is not significantly different to do that versus 
to do dam across the Columbia River.
    So the result is hundreds of these old dams get no 
attention because the bureaucratic and administrative costs of 
addressing them is so high that it is not worth the candle to 
deal with it. So finding a way to deal with these old dams I 
think would be a very useful process. If anybody else is 
interested, I put up my flag on that issue and look forward to 
hoping that that could be a bipartisan issue.
    So thank you. Let's get these rotten old pipes replaced. 
Well done on reasserting our legislative authority, and let's 
see what we can do about the old dams that are a threat but 
there is too much bureaucracy around fixing them to get it 
actually fixed.
    Senator Inhofe. Thank you, Senator Whitehouse. I might add 
on your comment on earmarks, since the moratorium originally 
went in, not one cent was saved. Did you know that?
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Mr. Roberson, I just wanted to thank you for being here 
today. As you know, I had a field hearing for the EPW Committee 
in August, and I was very, very pleased that John Kinter, the 
Environmental Manager at that great Nucor plant that we have in 
Norfolk, Nebraska, was there to testify, and he did an 
absolutely wonderful job in providing this committee with 
appropriate good information. So thank you for being here.
    I do have a question for you. Congress addressed the 
importance of resilient construction in the 2014 WRDA, and in 
your opinion, what was the intent of that?
    Mr. Roberson. Thank you, Senator. Thank you for the kind 
words about our nice plant, and thank you for the platform that 
you provided for us.
    Senator Fischer. Well, we love having you in Nebraska.
    Mr. Roberson. Outstanding. We love being there.
    The Army Corps of Engineers sets the standards for the 
large infrastructure projects with respect to resiliency, so I 
don't know that I can speak to what qualifies for that. What I 
can tell you is that steel is a resilient, durable product 
that, irrespective of that standard, we are prepared to provide 
material in support of that. In fact, the Rhode Island pipes 
that I saw, they are just dying for some Nucor steel in the new 
pipe manufacturing process.
    Senator Fischer. Thank you, sir.
    Mr. Swearingen, your testimony mentions the necessity of 
investing in energy transportation infrastructure. How will 
these infrastructure investments ensure American families have 
access to affordable energy?
    Mr. Swearingen. Senator, great question. I think with the 
energy boom and the renaissance in the United States, it is 
great to have the production, but you have to get it to the 
markets. The energy infrastructure, whether it is pipe, whether 
it is waterways, whether it is rail, whether it is truck, are 
all necessary, all of the above, in order to get that abundant 
affordable energy, keep it affordable, and get it to the end 
consumer.
    Senator Fischer. And will that help to make energy more 
affordable for our families?
    Mr. Swearingen. Absolutely.
    Senator Fischer. It definitely will. How are we going to 
move ahead on that? What are your recommendations?
    Mr. Swearingen. Well, I think certainly with the WRDA bill, 
moving forward with that and maintaining the infrastructure, I 
think continued work on pipeline safety authorization to enable 
pipelines, continued infrastructure development on the roads 
and the rails. It is really an all-of-the-above necessary 
infrastructure.
    Senator Fischer. I am glad you mentioned pipelines. I have 
a Safe Pipes Act that I am hoping we can get passed here in the 
Senate. I think it is very important that we move that bill 
forward. It helps with the regulations; it is going to help 
make our pipelines safer. So thank you for mentioning that.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Fischer.
    Senator Booker.
    Senator Booker. I want to thank Senator Fischer also for 
mentioning our Safe Pipes Act; we are working on together in 
the spirit of bipartisanship, which I hope makes the Chairman 
happy. And I want to thank the panel for being here today in 
general.
    I just cannot emphasize enough, after going to visit New 
Jersey and seeing the storm we just had, where in some areas 
the flooding was worse than Super Storm Sandy; to see people 
lose their homes, to see people who have had their livelihoods 
affected. The urgency that exists with us doing work that is 
improving our resiliency. And it is the most fiscally 
conservative thing I can think to do, which is to make a small 
investment up front to prevent from having to make a massive 
investment later on.
    So I cannot emphasize enough, as we start to talk about 
WRDA, about the urgency for resiliency efforts. It is the 
fiscally conservative thing to do, it is the enlightened thing 
to do. And after seeing the damage again in Cape May County 
last month, it is the humane thing to do, to empower families 
to persevere despite the wacky weather that we are having.
    The second thing that is very important to me is just this 
outrageous reality we have in this country where we have such 
an aged, decrepit system of delivering water to people. 
Literally, New Jersey, probably about $4 billion of deficit in 
terms of keeping the systems up, hundreds of billions of 
dollars nationally, that right now, and I am not just talking 
about Flint, but right now is putting our families, our 
children, our elderly folks in danger.
    Lead poisoning is not just something that happened in 
Flint, Michigan; it is happening based upon aged infrastructure 
all across our Nation, endangering young people, endangering 
elderly, endangering health and safety, particularly in poor 
neighborhoods.
    If the greatest natural resource this country has is not 
oil or gas, it is the genius of our children, then what we are 
doing with our inability to invest in improving this 
infrastructure is, to me, such an affront to everything we say 
we are as a Nation. And again, it is the fiscally conservative 
thing to do, upgrading these pipes, protecting health and 
safety, saving on medical costs, unleashing the economic 
potential. And the data shows, in fact, that investments in 
water infrastructure create an economic return in the same year 
that you make that investment that is far greater than what 
folks on Wall Street struggle to get every single day.
    So I just want to just emphasize those two urgencies.
    But very specifically to Dr. Mattei, I am working on a 
potential Senate companion bill to Congressman Earl 
Blumenauer's bipartisan Water Infrastructure Trust Fund Act 
that he introduced just last week with two of his Republican 
colleagues. The Trust Fund would provide resources, as you 
know, to improve our water infrastructure through the creation 
of a labeling system that would allow companies to voluntarily 
contribute to improving our water infrastructure. I am 
interested in working with my colleagues on the EPW Committee 
to include this proposal like the Water Infrastructure Trust 
Fund in this year's WRDA bill. I think it is an important step 
to addressing some of the issues I just talked about.
    So in the brief moment I have left in my time, Dr. Mattei, 
can you provide some of your thoughts on how the Water 
Infrastructure Trust Fund Act could help us address our chronic 
underfunding of our watershed and drinking water 
infrastructure?
    Ms. Mattei. Thank you for that question. Drinking water 
received a grade of D, and there is about a quarter of a 
million water main breaks a year.
    Senator Booker. Even beyond water main breaks, we are just 
leaching water out. There are leaks consistently where we are 
losing a tremendous amount of water we are treating and pumping 
as well.
    Ms. Mattei. Right. Back in my hometown it is about 40 
percent. So the older the city is, the leakier the connections 
of the distribution system. So we treat this water, which costs 
us money, and then we allow for some of that product to leak 
out, and that costs the American public.
    Senator Booker. So can you speak to Blumenauer's 
introduction? Is that something that would help getting more 
resources for our water infrastructure?
    Ms. Mattei. Of course it would. It is voluntary but it 
would allow for another source of funding in order to address 
some of the needs that we have in the area of drinking water.
    Senator Booker. Yes. You call it common sense. You would 
call it something that is just common sense allowing for that?
    Ms. Mattei. Just common sense to fix the leaks so that we 
drink what we clean.
    Senator Booker. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Booker.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    And thank all of you all so much for being here. We do 
appreciate all of your expertise and your willingness to come 
and share with us.
    Mr. Roberson, in Arkansas alone I understand that the Nucor 
facilities can recycle over 6 million tons of steel per year. 
You have some of the lowest emissions in the steel industry 
anywhere in the world. I believe that you have reduced energy 
intensity by more than 30 percent since 1990, and greenhouse 
gas emissions have fallen by 35 percent over the same time 
period, which is excellent. In short, Nucor is a global steel 
producing powerhouse, and your locations in Arkansas near the 
Mississippi River are globally competitive because of the 
waterway. That is one of the major things.
    Could you talk about how you are able to keep jobs in 
Arkansas and achieve environmental goals in part by remaining 
competitive globally?
    Mr. Roberson. Well, thank you, Senator. In Arkansas, I 
spent the first part of my career actually at one of the plants 
there in Arkansas, about 7 years. We locate those facilities 
where good American workers with good strong work ethics 
reside. They have a natural transferrable skill set that 
supports manufacturing steel, and that is one of the things 
that has driven the ability to do that in that State.
    Senator Boozman. Can you talk a little bit more about the 
importance of the inland waterways and how they affect your 
ability to transport your product in a very environmentally 
sensitive way, compared to being on trucks or on rail or 
whatever, and how that allows us to keep jobs at home as we 
compete in a very, very tough environment globally with others 
throughout the world?
    Mr. Roberson. Absolutely. So I mentioned in my testimony 
that 1,700 tons move on a barge. Many of our plants, the plants 
that you mentioned, 90 percent of their raw materials that come 
into their plants are moved on the waterway system. If you 
think about a catastrophic failure or the deterioration of 
service on the waterways, moving that to the rail system, that 
same 1,700 tons would now equate to 17 additional railcars 
moving product or, conversely, 80 truckloads. So if you think 
about that times bringing in 6 million tons of product and 
comparing that to our highways, it just doesn't make a lot of 
good common sense.
    Senator Boozman. So lots more emissions and lots more 
expense.
    Mr. Roberson. Lots more emissions, yes.
    Senator Boozman. Lots more of expense for your company in 
trying to compete.
    Mr. Roberson. Absolutely.
    Senator Boozman. Mr. Portiss, I would like to follow up a 
little bit on Senator Inhofe's question and your comment about 
what we try to do in the WRDA bill regarding the Corps' ability 
to accept help in an emergency.
    You said that in Oklahoma it would cost, what, $2 million a 
day, is that right?
    Mr. Portiss. That would be the economic loss to the State 
if a failure should occur, yes, sir.
    Senator Boozman. The other problem is one of the situations 
that we are always fighting with inland waterways is 
reliability. What would that do in the sense of if you had to 
shut down for many months, what would that do as you divert 
traffic off of that and people figure out, well, maybe we ought 
to shift to something else that is more reliable? What would 
that do to the system? Has anybody studied the long-term effect 
of the loss of business in the system in that regard?
    Mr. Portiss. There have been a multitude, Senator, of 
studies that have been done to try and figure out what would 
happen if we lost the waterway completely; what would be the 
alternatives for us to move those same products. Quite frankly, 
to me, having been in this business all these years, it would 
be devastating. We have worked for 45 years to try and develop 
our ports along our waterway, and I think we have done a 
respectable job. Now, all of a sudden, the whole waterway is at 
risk. So, therefore, those companies that we have been able to 
attract to locate in Arkansas and Oklahoma, gone.
    They are talking about doubling of international trade, at 
least, over the next 10 years. Our highways, our railroads do 
not have the capacity to be able to handle that. My friends 
that run the Port of L.A. in Long Beach, used to have a good 
friend out there by the name of Geraldine Nance, and she said, 
Bob, we don't have any more capacity here. It is just an 
example of why it is so important for us as a Nation to keep 
our inland waterway system viable.
    Selfishly, in Oklahoma, we are kind of new, but we are 
adding tremendously every single year. But that all would be 
lost if we lost this waterway. And I can give you company upon 
company names where I don't know what they would do. They would 
have to cut back production, cut back jobs, and the impact 
would be literally devastating.
    Senator Boozman. No, that is an excellent point. We talk 
about our farmers working hard to feed the world with the need 
in the future, and they can produce it, but if you can't get it 
there, then you have big problems.
    Thank you all very much. We appreciate your being here.
    Mr. Portiss. Thank you for the question, sir.
    Senator Inhofe. Thank you, Senator Boozman.
    Senator Cardin.
    Senator Cardin. Well, Mr. Chairman, I want to thank you, 
and I want to thank Senator Boxer for the manner in which you 
have always worked together on the WRDA bill. You both 
understand how critically important it is to our Nation's 
future.
    And I know that this committee wants to get the most robust 
WRDA bill done because we recognize it's jobs and it's economic 
growth and it enables so many important activities in our 
States. And you open up the process, and I really appreciate, 
and I will be coming to you on individual projects such as 
Smith Island, the last inhabitable island on the Chesapeake 
Bay, along with Tangiers, which is in Virginia. But in 
Maryland, Smith Island is the only--important to the Port of 
Baltimore, not only to commerce in my State, but the entire 
country, and how we need to pay attention in the WRDA bill to 
those types of economic activities.
    I talk about the Chesapeake Bay. I talk about Chesapeake 
Bay whenever I can, and the WRDA bill is an important tool in 
preserving this national treasure. And I certainly will be 
talking to you about Baltimore City and its economic 
development future. It has certain issues that I think we can 
deal with in the WRDA bill.
    But let me just use my time to underscore what many of my 
colleagues have talked about, and that is the importance for 
us, as the authorizing committee, to speak to a crisis we have 
in America, and that is the water infrastructure of America is 
in crisis. Now, we saw that in Flint. Flint was a very obvious 
symbol of drinking water pipes that are old, contain lead, and 
then inaction and, in many cases, failure to act when they 
should, put children and families at risk. And I hope before we 
go home for this recess that we will deal with this in the 
energy bill, dealing with Flint's issue, but I want to make 
sure we deal with the specifics.
    But the problem is nationwide. Let me just give you some of 
my figures on lead. In Washington, DC, in the early part of the 
last decade, lead leached into the water of possibly 42,000 
children. In the city of Baltimore, high lead levels in the 
school prompted officials to turn off drinking fountains and 
pass out bottled water. We don't use drinking fountains in our 
schools, we don't; we use bottled water in our schools in 
Baltimore City. We have been doing that for a while. And across 
the State of Maryland, every 1- and 2-year-old in the entire 
State will be tested for lead. That is 175,000 children will be 
tested for lead because we believe that there has been too much 
exposure in our State, and we want to do something about it.
    I think everybody has heard the circumstances about Freddie 
Gray and the tragedy that occurred in Baltimore. He suffered 
from lead poisoning.
    So we have to do something about the water infrastructure 
in America. This committee has tried to do things in the past. 
We have not been able to get to the finish line on some of 
these. The EPA estimates that our water infrastructure needs 
about $655 billion, $655 billion. We appropriate $2 billion a 
year in the State revolving funds, and we have not reauthorized 
the safe drinking water. I hope that in WRDA there will be an 
opportunity for us to take up the reauthorization of the Safe 
Drinking Water Revolving Fund.
    I noticed the President's budget is terribly inadequate in 
this area, Mr. Chairman. It is inadequate in the drinking 
water, and it is certainly inadequate in the clean water, where 
he cuts the Clean Water Fund. And as we all know, if you don't 
deal with the safe handling of our wastewater supplies, it 
affects the quality of water that goes into our drinking water, 
as well as into our streams, as well as into our environment.
    So I appreciate that the American Society of Civil 
Engineers gives us a report card every 4 years.
    Could you just explain, Doctor, why we got a D+? I didn't 
know we deserved a D+. Is there some improvement that I didn't 
know about? Obviously, that is an unacceptable grade. Tell me 
why we are deficient. This is the greatest Nation in the world.
    Ms. Mattei. This is the greatest Nation in the world, but 
we have been really riding on the coattails of our parents and 
our grandparents, and the investments that they made, and we 
have not really maintained it properly, nor have we modernized 
this infrastructure properly. We really need to be smarter and 
build smarter.
    We determined these grades based on eight different areas: 
Capacity. So we need the capacity. Condition. What is the 
condition of each of these items? What is the funding that is 
in the pipe already? What is the future need? Because we see 
growth in many areas. O&M, operations and maintenance, which we 
have been pretty bad as a Nation on maintaining our 
infrastructure properly. Public Safety. Resilience, as has been 
mentioned. It is a lot cheaper to create resilient 
infrastructure than to throw money at it when it breaks and 
there is a disaster. And finally, Innovation. So those are how 
we get those grades. And across the board, in all sectors, we 
are not doing a good job at any of those eight areas.
    Senator Cardin. Thank you for your testimony. I do know 
that this committee wants to do something about it, and we are 
going to try to find a way to make that a reality. Thank you 
for your testimony.
    Senator Inhofe. Thank you.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman. Before Senator Cardin 
heads for the floor to help manage the Career Sanctions bill, 
what I am going to talk about here today is the damage we 
sustain on beaches from the southern part of your State all the 
way to the northern part of my State, and you were a partner in 
this, but the great work that is done by the Army Corps of 
Engineers to help restore the dunes that are on our beaches 
from Fenwick Island, which is just north of Ocean City, 
Maryland, all the way up to Lewes, Delaware.
    We went through a nor'easter, I was told it was the worst 
nor'easter we have had since maybe 1962, and it occurred that 
this nor'easter of 1962 pretty much--I don't know if it 
destroyed all of our coastal towns, but it came pretty darn 
close. And in this case we had a nor'easter almost as bad as 
that one, and when the winds subsided and the storm subsided, 
the buildings in all these towns were still standing, the homes 
were still standing; the infrastructure, the roads, the sewer 
systems were still operable, and the boardwalks were still 
there, and it is because of the work that was done in preparing 
defense against the onslaughts of Mother Nature. Some of those 
dunes are largely eroded, largely gone, but they need to be 
maintained and sort of rebuilt. Mother Nature is beginning to 
bring sand back onto the beach, and we are bulldozing that sand 
up to the boardwalks, so we are getting a little helping hand 
there from Mother Nature, but there is more work to be done.
    I am not sure who to start off with this question, but I 
understand one of you is a president-elect, so we will just 
start with you. President Mattei, Dr. Mattei, your first name 
is Norma Jean.
    Ms. Mattei. Norma Jean. My momma did that to me.
    Senator Carper. Has anyone asked you about your name today?
    Ms. Mattei. Not yet, but people sing the song to me, 
Goodbye, Norma Jean, all the time.
    Senator Carper. Hello, Norma Jean.
    Ms. Mattei. Thank you.
    [Laughter.]
    Senator Carper. I want to echo Senator Booker's comments on 
the importance of investments to protect life and property 
along our coasts. In the middle of our Nation we invest in dams 
and levees and flood control, but on our coast--as I have 
alluded to, and Senator Cardin would agree with this--it is 
beaches and dunes that protect us and help us to save money 
when we get hit by a big one, as we were a couple of weeks ago.
    Unfortunately, we are seeing damaging storms come along 
more frequently. As I mentioned, a couple weeks ago a storm 
called Jonas did more damage in Delaware than many summer 
hurricanes. Nor'easters are what we fear really more than 
hurricanes these days.
    But I will be touring these areas. I have been down to them 
a couple of times with our Governor, our congressional 
delegation. I am going to go back later this week. What I am 
hearing is that the Army Corps is running low on funds to 
complete disaster repairs, and here is my question: Should 
Congress examine potentially increasing the amount of 
authorized emergency repair funding? And what else can we do to 
protect coastal residents from storm and flood damage?
    If we can start with you, Dr. Mattei.
    Ms. Mattei. So people love the water, they love to be by 
the water, they love to be by the beach, so I don't think that 
that trend of the population moving to the coasts or the inland 
coasts is going to change anytime soon. Regardless of the 
cause, we are suffering from an increase in sea level, so we 
know, as engineers, that we can design properly, but you need 
to fund and innovate. So it is a question of innovation, I 
think, and that costs money.
    So when you talk about coastal areas, and my hometown is 
the poster child for the issues that we are talking about.
    Senator Carper. Where is your hometown?
    Ms. Mattei. New Orleans.
    Senator Carper. OK.
    Ms. Mattei. So we have subsidence issues that the net 
difference that we are going to see in the future is, quite 
frankly, a little frightening.
    So there are measures that we can take to restore 
coastlines, but it is costly. And, as you mentioned, a storm 
can take away what you shore up along coasts, as far as sand 
dunes. So any measures to work with Mother Nature are usually a 
very wise thing so a healthy coastline is more resilient, it is 
more able to bounce back from a disaster.
    Senator Carper. All right. My time has almost expired. 
Could one more person just comment very briefly in response to 
the question?
    Thank you, Doctor, and good luck in your administration.
    Anyone else want to comment? Please. All right, I guess you 
said it all. Thanks very much.
    Senator Inhofe. Thank you, Senator Carper.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Chairman Inhofe. Thank you 
both for holding this hearing today. I appreciate it very much.
    I am pleased that investing in our infrastructure is a 
bipartisan issue for our committee, and we all agree that 
investing in our infrastructure is critical for a growing 
economy, creating good paying jobs here at home and remaining 
competitive.
    As this committee puts together a new WRDA bill this year, 
we also have the opportunity to ensure that we are improving 
the safety of our water infrastructure, restoring our 
environment, and protecting coastal communities like those on 
Long Island and Staten Island against the effects of climate 
change and extreme weather such as Super Storm Sandy.
    As we are still rebuilding from the devastation of Super 
Storm Sandy, we have to actually rebuild smarter to ensure that 
our flood protection strategies will result in more resilient 
communities that are prepared to withstand future storms. We 
should look at additional steps we can take to encourage and 
support the use of natural infrastructure to protect against 
flood risk. Restoring coastal wetlands and other natural buffer 
zones against storm surge is critical to coastal States like 
mine.
    In addition to making our coastlines more resilient, we 
must also ensure that we are addressing the safety of hundreds 
of dams in upstate New York, many of which are beginning to 
show signs of aging. I hope that we can work together to 
address concerns that New York has about the continued 
maintenance of Army Corps-built infrastructure and find a way 
for the Corps to provide more technical assistance, and where 
necessary, funding to assist States with aging infrastructure.
    So I hope that this year's WRDA bill will also address the 
continued funding needs of the Great Lakes navigation system, 
including the commercial and recreational harbors along Lake 
Erie and Lake Ontario in New York.
    I just have a couple questions for Dr. Mattei. Dr. Mattei, 
what are the benefits of investing in environmental restoration 
and natural infrastructure to protect against the threat of 
extreme weather and storm surges?
    Ms. Mattei. So as I mentioned before, a healthy coastline 
or healthy estuaries are more capable of bouncing back from a 
storm or from riverine flooding, depending on where your high 
water comes from. So if you engineer those properly and 
smartly, sometimes it is not trying to restore a coastline to 
where it used to look, the way it used to look, but putting it 
where it needs to be in order to protect the public, in order 
to protect plants, industries. So you really have to be wise in 
where you put these coastal restoration projects. And if you 
work with healthy plant life, that can really provide 
resilience against storm surge or flooding.
    Senator Gillibrand. According to the American Society of 
Civil Engineers' 2015 Infrastructure Report Card for New York, 
we have 399 high-hazard dams, and $152 million are needed to 
repair dams in my State. What more should the Federal 
Government be doing to address these critical inspection repair 
needs to ensure the safety of communities near those dams?
    Ms. Mattei. Well, that is the million dollar question, or 
maybe it is more.
    Senator Gillibrand. No, it is $152 million.
    Ms. Mattei. And again it may be if Federal expenditures are 
not going to increase, then the costs perhaps are going to be 
pushed onto the States and to municipalities. At least in the 
dam arena we know how many we have and what the conditions are, 
so you know the number. Unfortunately, I don't have a crystal 
ball to tell you what is the one that is going to go first, if 
we do have a failure.
    Senator Gillibrand. Could the Federal Government at least 
do a review and prioritize them? These are Army Corps projects.
    Ms. Mattei. That is exactly where I was going.
    Senator Gillibrand. They should have the expertise to at 
least assess these ones are going to be the ones that will 
breach, that will harm human health more in a more likely way 
or more urgently. I would expect the Army Corps having an 
opinion about which projects are urgent would be useful.
    Ms. Mattei. So it is a matter of risk, so when you measure 
risk and you can rank them appropriately. Risk is, you take a 
look at the probability of a failure and also the consequences 
of that failure, so you might have a dam that is perhaps not 
highly probable of failing, but it is really protecting a lot, 
so the consequences of that failure then put it up in a higher 
priority level.
    Senator Gillibrand. OK.
    Thank you, Madam Chairwoman. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Gillibrand.
    And we thank the panel.
    Any final comments, Senator Boxer?
    Senator Boxer. No. I am with you in your final.
    Senator Inhofe. OK, that is good.
    Well, we appreciate very much your coming. This is 
something, for those who are outside observing this committee 
for the first time, it is not always this friendly.
    [Laughter.]
    Senator Inhofe. But we get things done. While other people 
talk about it, we do it, with the help of people on the 
outside, like you. I appreciate very much each one of you 
taking the time to come, particularly Bob Portiss because he 
came from my hometown.
    We are adjourned.
    [Whereupon, at 11:34 a.m. the committee was adjourned.]
    [An additional statement submitted for the record follows:]

                    Statement of Hon. David Vitter, 
                U.S. Senator from the State of Louisiana

    Thank you, Chairman Inhofe and Ranking Member Boxer, for 
holding this very important hearing on the Water Resources and 
Development Act. Three years ago, this committee, and 
ultimately Congress, passed a bipartisan WRRDA bill that 
addressed many of our Nation's water resources needs and the 
Army Corps of Engineers' project delivery process. Success was 
achieved through this committee's deliberative process, and the 
same success can be achieved if we follow the formula that gave 
us a bill in 2014.
    This hearing to discuss the importance of passing another 
Water Resources and Development Act is a critical first step to 
achieving a successful bipartisan solution to the problems that 
face our Nation's water resources infrastructure. However, 
success can only be achieved if concerns from members of this 
committee, and the full Senate, are properly addressed to the 
fullest extent possible.
    Accordingly, this committee must ensure that our partner in 
water resources development, the Army Corps of Engineers, is 
held accountable for their actions--or inaction--to properly 
maintain our waterways, dams, locks, and levees, and protect 
those in harm's way from catastrophic natural disasters like 
hurricanes Katrina, Rita, Irene, and Sandy.
    To achieve the aforementioned success in developing a 
bipartisan WRDA bill, I believe we must use the deliberative 
hearing process of this committee to address some very 
important issues affecting the Corps and our Nation's water 
resources projects.
    Several times over the past decade, I embedded myself with 
the Corps' New Orleans District as hurricanes and tropical 
storms made landfall in south Louisiana. It was important to me 
and my constituents to see how the Corps operated their 
disaster management plan and how the nearly complete $14 
billion post-Katrina hurricane protection system performed when 
pushed to the limits of Mother Nature.
    While the Corps' post-Katrina hurricane protection system 
has worked without incident and kept the metropolitan New 
Orleans area virtually free of flood waters on several 
occasions, many communities surrounding the protection system 
were inundated with upwards of 14 feet of storm surge during 
Hurricane Isaac. I visited many of those communities after the 
storm and witnessed firsthand the destruction caused by flood 
waters.
    One such community is LaPlace, Louisiana. This community of 
32,000 is located west of New Orleans along the east bank of 
the Mississippi River and south of Lake Pontchartrain. Local 
officials and the levee board have been trying for almost 40 
years to get a hurricane protection project, as Congress first 
authorized a recon study in 1971 and again in 1974. Over the 
past four decades, the Corps has unnecessarily delayed the 
project, changed the alignments, and increased the construction 
cost exponentially.
    Finally, after decades of work, the Corps has given 
Congress a favorable Chief's Report recommending construction 
of a critical flood protection measure to protect those people 
who have experienced the devastation of hurricanes in south 
Louisiana. To make this project a reality, Congress must 
authorize this project for construction, and it begins by 
passing a WRDA bill this year. Had there been some level, any 
level, of flood protection in place before Hurricane Isaac, 
much of the storm surge would have been prevented.
    I'm pretty confident that many of my fellow colleagues on 
this committee have water resources projects in their States 
that have been on the Corps' books for many years, decades in 
some cases. The current Corps study and construction schedule 
is approximately 20 years, and in some cases much longer. This 
lengthy process is unacceptable to the taxpayers who depend on 
the Corps to provide expeditious delivery of critical projects 
for flood protection, navigation, ecosystem restoration, and 
other water resource projects.
    It is imperative that this committee continue to build upon 
reforms to the Corps' current project delivery process outlined 
in WRRDA 2014 so the time to construct water resources projects 
is a few years and not a few decades. Simple reforms to how the 
Corps does business with States and local stakeholders are what 
this committee needs to address as we move forward on the WRDA 
bill.
    Another issue affecting not only Louisiana, but our Nation, 
is the ineffective operation and use of the Inland Waterway and 
Harbor Maintenance Trust Fund. Under the current Inland 
Waterway Trust Fund model, critical lock and dam projects are 
being constructed at a slow crawl, and several have experienced 
serious cost overruns since construction began. The Inner 
Harbor Navigation Canal is a project in Louisiana that will be 
constructed using IWTF dollars, but at the rate the Corps is 
constructing other projects on the trust fund's list, the Corps 
will not complete the IHNC before 2075.
    The Harbor Maintenance Trust Fund is not much different. 
This fund collects nearly $1.7 billion in excise tax on a 
yearly basis, but the administration and Corps only budget 
about half of that for use to operate and maintain our Nation's 
ports and coastal waterways. This is particularly unacceptable 
on the Mississippi River, which flows through the entire State 
of Louisiana into the Gulf. Historically, the cost to operate 
and maintain the lower Mississippi River, from Baton Rouge to 
the Gulf, is about $100 million-$120 million a year. However, 
the administration and the Corps only budget a little more than 
half of what it costs to operate and maintain this economic 
superhighway, which consequently is experiencing severe 
shoaling and vessel draft restrictions as a result.
    We must build upon the legislative fixes to these trust 
funds included in WRRDA 2014 to improve our Nation's 
competitive advantage in world markets, especially with the 
expansion of the Panama Canal. This committee must ensure that 
our Nation's ports and waterways are operated and maintained at 
their full width and depth, and water resources infrastructure 
on those waterways are built in a more expedited manner than 
the Corps' current schedule.
    I am appreciative of the efforts of Chairman Inhofe for 
holding this critical hearing to move forward on WRDA. I 
encourage the Chairman to work with the members of this 
committee in a transparent, bipartisan manner to find solutions 
to the issues affecting our Nation's water resource projects 
and policies that govern their success. In the interest of all 
taxpayers, we cannot afford to hastily push a bill through this 
committee without addressing these key issues. I look forward 
to working with you and your staff in an expeditious manner to 
help achieve passage of the next WRDA bill.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
